1

No. 20-619
IN THE
SUPREME COURT OF THE UNITED
STATES
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners
-v.Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents
Petition for Rehearing
— — -" Qn-AVr-itTof-rCertiorarhTo the U.S. Court of Appeals for the 2nd
Circuit
CERTIFICATE OF SERVICE
I certify that I served this 1. PETITION FOR
REHEARING, 2. APPENDIX 3. THE CERTIFICATE
OF COMPLIANCE that this PETITION FOR
REHEARING is filed on substantial grounds not
previously presented 4. THE CERTIFICATE OF

2

COMPLIANCE for document requirements 5. THE
CERTIFICATION PETITION IS PRESENTED IN
GOOD FAITH AND NOT FOR DELAY to the
following parties by sending the documents to them
via Fed Ex on Friday February 5, 2021.
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Susan T. Johns, Esq.______________
1^315^437-7600
Ferrara Fiorenza, PC
5010 Campuswood Dr.
East Syracuse, NY 13057
Attorney for the Shenendehowa Central School
District
Michael G. McCartin
P (518) 776-2620
Assistant Attorney General
THe^Capitol
——Albany, NY 12224-0341
Attorney for Betty Rosa, Commissioner of the NYSED
Respectfully Submitted on Friday, February 5, 2021
R.S. Pro Se on be

of A.S.

